No.
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

HAAR AHIR RARER RARER IHR ER REE EIA RIK ERE EI RINE EE EER ERE ERE,

ANTONIO KEVIN MCKOY, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent

HRI RINK RA ERA RHR ERIE RR EIR RE EKER ELI ER RR IEE RRR KEIR ER ER EEE,

ENTRY OF APPEARANCE
and
CERTIFICATE OF SERVICE

FRI IN RRR RRR RII RHE IER EEE I KIER ER ARLE RARER REET K IN ER REE IR,

I, Rudolph A. Ashton, IIT, a member of the North Carolina State Bar, having

been appointed to represent the Petitioner in the United States Court of Appeals for

the Fourth Circuit, pursuant to the provisions of the Criminal Justice Act, 18 US.C.

§ 3006A, hereby enter my appearance in this Court in respect to this Petition for a

Writ of Certiorari.

I, Rudolph A. Ashton, IIH, do swear or declare that on this date, the 10% day

of May, 2021, pursuant to Supreme Court Rules 29.3 and 29.4, I have served the

attached motion for leave to proceed in forma pauperis and petition for a writ of

certiorari on each party to the above proceeding, or that party's counsel, and on

every other person required to be served by depositing in an envelope containing the

above documents in the United States mail properly addressed to each of them and

-15-
with first-class postage prepaid. The names and addresses of those served are as

follows:

Jennifer P. May-Parker, AUSA
David A. Bragdon, AUSA .
Office of the United States Attorney
Eastern District of North Carolina
150 Fayetteville Street, Suite 2100
Raleigh, NC 27601

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington DC 20530-0001

This the 10 day of May, 2021.

Respectfully submitted,

RUDOLPH A. ASHTON, IIT

Panel Attorney,

Eastern District of North Carolina
N.C, State Bar No. 0125

Post Office Drawer 1389

New Bern, North Carolina 28563-1389
Telephone: (252) 633-3800

Facsimile: (252) 633-6669

Email: RAshton@dunnpittman.com

Subscribed and Sworn to Before Me soy

  

This the 10" day of May, 2021.

 

Mle be ace.
Notary Public

My Commission Expires: 2//¢ (2 O24

  

-16-
